                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

Case Number: AI0050038                                                                        Page 1 of 1



                NSF OIG received an allegation of duplicate funding in an NSF proposal. 1 It was alleged that
         the Subject's2 proposal requested funding for work he had already comple:ted. We determined the
         language used in the proposal introduction was vague and failed to clarify the difference between the
         work proposed and that previously achieved and published. We informed the Subject that a clearer
         description of preliminary work and how the proposed work differs from completed work are
       , necessary in the Subject's future submissions to NSF. No further action is warranted.

                    Accordingly, this case is closed.




NSF OIG Fonn 2 (I 1/02)

                                 c,
